           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE INDICATOR AUDIT:
  SUPPLEMENTAL SECURITY INCOME
        PAYMENT ACCURACY


   September 2006   A-15-06-16107




AUDIT REPORT
                                  Mission
By conducting independent and objective audits, evaluations and
investigations, we inspire public confidence in the integrity and security of
SSA’s programs and operations and protect them against fraud, waste and
abuse. We provide timely, useful and reliable information and advice to
Administration officials, Congress and the public.

                                 Authority
The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and
      proposed legislation and regulations relating to agency programs
      and operations.
      Keep the agency head and the Congress fully and currently informed
      of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the
      reviews.

                                   Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud,
waste and abuse. We commit to integrity and excellence by supporting an
environment that provides a valuable public service while encouraging
employee development and retention and fostering diversity and
innovation.
                                  SOCIAL SECURITY

MEMORANDUM

Date:   September 18, 2006                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Supplemental Security Income Payment Accuracy
        (A-15-06-16107)

        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 15 of the
        Social Security Administration’s performance indicators established to comply
        with the Government Performance and Results Act. The attached final report
        presents the results of one of the performance indicators PwC reviewed. For the
        performance indicator included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over
               data generation, calculation, and reporting processes for the specific
               performance indicator.
           •   Assess the overall reliability of the performance indicator’s computer
               processed data. Data are reliable when they are complete, accurate,
               consistent and are not subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in the Fiscal Year
               2005 Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement
               of the program it measures and the achievement of its stated objective.
        This report contains the results of the audit for the following indicator:
           •   Percent of SSI payments free of preventable overpayments and
               underpayments.
        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.



                                                          S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
MEMORANDUM

Date:     September 6, 2006

To:       Inspector General

From:     PricewaterhouseCoopers, LLP

Subject: Performance Indicator Audit: Supplemental Security Income Payment Accuracy
          (A-15-06-16107)

OBJECTIVE
The Government Performance and Results Act (GPRA)1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity.2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance.3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicator included in this audit,
our objectives were to:

          1. Assess the effectiveness of internal controls and test critical controls over the
             data generation, calculation, and reporting processes for the specific
             performance indicator.

          2. Assess the overall reliability of the performance indicator’s computer
             processed data. Data are reliable when they are complete, accurate,
             consistent and are not subject to inappropriate alteration.4

          3. Test the accuracy of results presented and disclosed in the Fiscal Year (FY)
             2005 Performance and Accountability Report (PAR).

          4. Assess if the performance indicator provides a meaningful measurement of
             the program it measures and the achievement of its stated objective.

1
 Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.
and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
    GAO-03-273G Assessing Reliability of Computer Processed Data, October 2002, p. 3.


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                                      1
BACKGROUND
We audited the following performance indicator as stated in the SSA FY 2005 PAR:

Performance                  Goal                                     Reported Results
Indicator

Percent of SSI               FY 2004                                  FY 2004 Actual5
payments free of             Overpayment accuracy: 95.4%              Overpayment accuracy: 93.6%
preventable
overpayment (O/P)            Underpayment accuracy: 98.8%             Underpayment accuracy: 98.7%
and underpayment
                             FY 2005                                  FY 2005 Estimated6
(U/P)                        Overpayment accuracy: 94.9%              Overpayment accuracy: 93.6%

                             Underpayment accuracy: 98.8%             Underpayment accuracy: 98.7%


The Supplemental Security Income (SSI) Program, authorized by Title XVI of the Social
Security Act, was designed as a needs-based program to provide or supplement the
income of aged, blind, and/or disabled individuals with limited income and resources.7
To determine an individual's initial eligibility and benefit payment amounts, SSA relies
on the individual's self disclosure of all income sources. SSI benefit payments have an
increased risk of overpayments and underpayments because an SSI recipient's
eligibility is based on medical and non-medical eligibility factors (e.g. financial status,
marital status, living arrangements, etc.), and because these non-medical factors can
change with some frequency.

Within SSA, the Office of Quality Performance (OQP) conducts reviews (known as
Stewardship reviews) to measure the quality and accuracy of recurring benefit
payments provided by SSA. OQP randomly selects SSI beneficiaries each month to
participate in the review. The Assistance and Insurance Program Quality Branch
(AIPQB), or regional OQP offices, receive the sample participants’ information from
OQP, schedule and conduct interviews with the recipients if necessary, and determine
whether there has been an over or underpayment based on non-medical factors of
eligibility. The results of the review are entered into the SSI Quality Assurance (QA)
System. See Appendix C for a workflow and description of the review process. OQP
calculates the performance indicator results based on the outcome of the Stewardship
reviews, excluding the "unpreventable" overpayments and underpayments.


5
 The FY 2004 final data for the indicator was not available in time for the publication of the FY 2004 PAR.
Therefore, the final FY 2004 results were reported in the FY 2005 PAR.
6
 The performance data presented for FY 2005 is an estimate. Per SSA’s FY 2005 PAR, final data was
not expected to be available until July 2006 and will be reported in the FY 2006 PAR.
7
    The Social Security Act, §§ 1601-1637, 42 U.S.C. §§ 1381-1383f.


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                                        2
SSA has identified two specific situations in which an overpayment or underpayment
would be considered unpreventable. First, the Goldberg v. Kelly Supreme Court
decision of 19708 ruled that the United States Constitution's Fourteenth Amendment
Due Process Clause requires that there be a full evidentiary hearing before terminating
certain government benefits. Accordingly, Due Process under the Fourteenth
Amendment requires that SSI beneficiaries have the right to appeal before their benefit
payments can be legally terminated.9 If the beneficiary is found to be ineligible for the
SSI program, all payments received during the periods of ineligibility would be
considered standard overpayments. However, payments that were made to ineligible
beneficiaries while their cases were being reviewed through the hearings and appeals
process would be considered unpreventable. If the beneficiary is found to be eligible for
the SSI program and payments received during the periods of eligibility should have
been a higher amount, the underpaid amount would be considered unpreventable.

Second, SSA relies on SSI recipients to report changes to their income in a timely
manner. If a recipient fails to report a change to income in a timely manner, specifically
a change that would affect SSI eligibility, payments made during the periods of
ineligibility would be considered unpreventable. Furthermore, if the change of income
which was not reported by the recipient caused an increase in the monthly payment
amount, the underpaid amount would also be considered unpreventable.

The performance indicator is calculated in the following manner:

                                                         * Overpayments or underpayments
Percent of SSI payments free of                                (minus) - Unpreventable
preventable overpayment (O/P) and                 =       overpayments and underpayments
underpayment (U/P)                                                Total dollars paid

                                                        * This percentage is subtracted from 100
                                                        percent to attain the accuracy rate

For FY 2004, the SSI Payment Accuracy (Stewardship) Report noted that SSI
Stewardship reviews were completed on 4,282 cases, with an overpayment accuracy
rate of 93.6 percent and an underpayment accuracy rate of 98.7 percent.10 The FY
2005 overpayment and underpayment accuracy results were presented as an estimate.
As of July 2006, the actual results were not yet available. SSA management used the
actual indicator results for FY 2004 as the estimated results for FY 2005 indicator.
Management indicated there were no legislative or operational changes that impacted
the FY 2005 OQP process. As a result, management did not expect performance
variances between FYs 2004 and 2005.


8
    Goldberg, Commissioner of Social Services of the City of New York v. Kelly et al., 397 U.S. 254 (1970).
9
    POMS DI 40515.001 Due Process.
10
     SSA's FY 2004 Supplemental Security Income Payment Accuracy (Stewardship) Report, p. 1.


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                                             3
The payment accuracy rate performance indicator percentage is derived from sampled
cases and does not generally equal the true accuracy rates for all payments.
Accordingly, SSA calculates the precision, or margin of error, for each of the accuracy
rate percentages. The margin of error is not used in the calculation of the payment
accuracy rate indicator. Rather, the margin of error provides a range of values that are
expected to contain the true population accuracy rate with some level of confidence.
The margin of error was disclosed in the FY 2005 PAR. Appendix D provides more
information on SSA’s methodology for calculating the margin of error.

RESULTS OF REVIEW
Overall, we found this performance indicator to be a meaningful GPRA measure. The
performance indicator has a direct measure of outcomes and supports SSA’s strategic
goal "Prevent fraudulent and improper payments and improve debt management."11
We found SSA’s methodology for calculating the accuracy rate for this performance
indicator to be appropriate and statistically valid. We successfully recalculated the
performance indicator results reported in the SSA FY 2005 PAR for FY 2004 actual
results. The FY 2005 results were reported as estimates based on the actual FY 2004
results. Although we were able to recalculate the accuracy rate for FY 2004, we
concluded that the Stewardship reviews were not consistently completed in full
compliance with SSA's policies and procedures. We found the data used in the
calculation was unreliable as a programmer had inappropriate access to the OQP
production data. Lastly, we found that SSA management did not clearly define the data
definition for the indicator and did not provide a clear linkage to other relevant
information within the PAR related to the SSI Stewardship process.

Internal Controls

From the sample of cases we reviewed, we found that the SSI Stewardship reviews
completed by the AIPQB were not completed in accordance with OQP's Quality Review
Manual System (QRMS). We examined 45 case files for compliance with the QRMS.
We concluded that 8 out of the 45 cases had non-payment deficiencies that were not
communicated to the field offices. The QRMS requires that cases involving non-
payment deficiencies such as incorrect mailing or residence addresses be reported to
the appropriate field office. The lack of communication of these non-payment
deficiencies to the field office does not change the accuracy of the reported
performance indicator results. However, these deficiencies do represent areas of non-
compliance with SSA policies and procedures.

AIPQB personnel record the results from the Stewardship reviews in the SSI QA
database, which is used to calculate the overpayment and underpayment accuracy rate.
During our review of the mainframe datasets used to calculate the indicator, we found
that one programmer had the "ALL" access designation to the datasets. This level of
access allows the user to create, delete, and modify any of the data contained within the

11
     SSA's FY 2005 Performance and Accountability, p. 85.


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                          4
dataset without detection. This level of access prevents SSA from ensuring the integrity
of this production data, and consequently the accuracy of the reported indicator results.
The Office of Management and Budget (OMB) Circular A-130 requires agencies to
implement the practice of least privilege whereby user access is restricted to the
minimum necessary to perform his or her job; and enforce a separation of duties so that
steps in a critical function are divided among different individuals.12 Therefore, the data
used in the calculation of the indicator cannot be considered reliable. SSA
management reported that they have since taken the necessary steps to ensure that
appropriate access to datasets for programmers have been designated.

PAR Presentation and Disclosure

SSA management did not clearly define the phrases "free of preventable" and
"unpreventable," which were used interchangeably in the data definition for this
indicator. In the SSI Payment Accuracy (Stewardship) Report, SSA management
defines "unpreventable" as overpayments and underpayments resulting from legal or
policy requirements (e.g. Goldberg v. Kelly Supreme Court decision).13 However, in
SSA's tracking report, which is used to report progress of the indicator to the Office of
the Chief Strategic Officer (OCSO), "free of preventable" is defined as overpayments
and underpayments that are within the Agency's or beneficiaries' ability to prevent.
In addition, SSA management did not provide a clear linkage to other sections of the
PAR that contain relevant information regarding the SSI Stewardship process. For
example, the PAR contains the Improper Payment Information Act of 2002 Detailed
Report, which provides information on the major causes of SSI improper payments and
the corrective actions proposed by the SSA management. SSA management informed
the audit team that they will be updating the data definition, and improving the linkage of
this indicator to complementary areas of the FY 2006 PAR.

CONCLUSION AND RECOMMENDATIONS
We recommend SSA:

       1. Reinforce the policies and procedures for management's review of case files in
          accordance with the SSI QRMS.

       2. Continue to restrict access to personnel who should not have the ability to
          directly modify, create or delete the datasets used to calculate indicator results.

       3. Clearly define the phrases "free of preventable" and "unpreventable" and ensure
          consistent usage of the wording throughout the narrative sections of the PAR.



12
  OMB Circular A-130, Management of Federal Information Resources, Appendix III, Security of Federal
Automated Information Resources.
13
     SSA's FY 2003 Supplemental Security Income Payment Accuracy (Stewardship) Report, p. 1.


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                                      5
   4. Provide a clear linkage in the narrative sections of the PAR to other sections of
      the PAR that contain relevant information that support the performance indicator.

AGENCY COMMENTS

SSA agreed with our recommendations. See Appendix E for the full text of the
Agency’s comments.




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                     6
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Statistical Methodology

APPENDIX E – Agency Comments




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)
                                                                    Appendix A
Acronyms
AIPQB                 Assistance and Insurance Program Quality Branch
DEQY                  Detailed Earnings Query
FO                    Field Office
FY                    Fiscal Year
GAO                   Government Accountability Office
GPRA                  Government Performance and Results Act
OCSO                  Office of the Chief Strategic Officer
OMB                   Office of Management and Budget
OQP                   Office of Quality Performance
PAR                   Performance and Accountability Report
POMS                  Program Operations Manual System
PwC                   PricewaterhouseCoopers, LLP
QA                    Quality Assurance
QAMod                 Quality Assurance Modernization
QRMS                  Quality Review Manual System
ROC                   Regional Operations Component
ROQA                  Regional Office of Quality Assurance and Performance
                      Assessment
SEQY                  Summary Earnings Query
SO                    Satellite Office
SSA                   Social Security Administration
SSI                   Supplemental Security Income
SSIRD                 SSI Record Display
SSN                   Social Security number
SSR                   Supplemental Security Record
U.S.                  United States Reports
U.S.C                 United States Code




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and questions to SSA management. We also requested SSA to
provide various documents regarding the specific programs being measured as well as
the specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Government Accountability Office, Office of the Inspector
       General and other reports related to SSA’s GPRA performance and related
       information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of the performance indicator to ensure
       mathematical accuracy.
   •   We assessed the completeness and accuracy of the data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicator appeared to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.

We followed all performance audit standards in accordance with generally accepted
government auditing standards.




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                      B-1
In addition to these steps, we specifically performed the following to test the indicator
included in this report:

   •   Interviewed personnel in the Office of Quality Performance (OQP).
   •   Assessed the sample selection methodology for SSI Stewardship case files.
   •   Reviewed a sample of SSI Stewardship cases and determined if review was in
       compliance with the OQP policies and procedures.
   •   Reviewed the process for controlling access to the datasets storing the indicator
       data and tested the appropriateness of the access privileges granted to the
       datasets for a selection of SSA personnel.
   •   Reviewed the weights applied to the sample size and universe.
   •   Recalculated the payment accuracy rate, including case weights, for
       overpayment and underpayments.
   •   Assessed estimation methodology for FY 2005 payment accuracy estimates.




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                           B-2
                                                                    Appendix C
Flowchart of SSI Payment Accuracy




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)          C-1
Flowchart of SSI Payment Accuracy - Narrative
• The Quality Assurance Modernization (QAMod) randomly extracts two segments from
  the Supplemental Security Record (SSR).

• QAMod selects cases from sampled Field Offices (FO). FOs are divided into three
  groups determined by Regional Office of Quality Assurance and Performance
  Assessment (ROQA) travel costs. Groups 2 and 3 are randomly selected for each
  month in the Fiscal Year. Group 1 offices require no overnight travel.

• Electronic notification sent to Assistance and Insurance Program Quality Branch
  (AIPQB), or the Satellite Offices (SO), where the reviewer prepares/schedules in-
  home interview and conducts the interview.

• AIPQB obtains verification of recipients' eligibility factors, including the SSI Record
  Display (SSIRD), the Summary Earnings Query (SEQY), and other alerts. AIPQB
  reviewer analyzes all information and determines the accuracy of the payment.

• If AIPQB does not detect any deficiencies, the OQP case file is maintained in the
  regional AIPQB.

• If AIPQB does identify deficiencies, AIPQB completes SSA-93 form and forwards the
  form and claim folder (if available) to the FO.

• If the FO disputes the review, they resolve their differences with AIPQB. If the FO
  does not dispute the review, the FO must correct the deficiency within 30 days. The
  Regional Operations Component (ROC) ensures the correction was made within 30
  days.

• AIPQB enters results regarding the accuracy of the payment made in the sample
  period and notes preventable and unpreventable payment deficiencies in the SSI QA
  database.

• OQP extracts data from QAMod and applies case weights to sample size and
  universe.

• OQP calculates the payment accuracy rate (number of cases without error divided by
  the total number of cases) and reports the rates in the Stewardship report.

• Indicator data is sent to Office of the Chief Strategic Officer (OCSO) and subsequently
  reported in the Performance and Accountability Report.




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                           C-2
                                                                              Appendix D

Statistical Methodology - Margin of Error
Calculation
SSA uses a random group methodology to calculate the Title XVI payment accuracy
margin of error. Per SSA documentation the margins of error methodology is described
as follows:

       1. The sample data is randomly assigned to 10 groups of equal size with any
          remainder assigned randomly, 1 to a group.
       2. The accuracy rate (number of cases without error divided by the total number
          of cases) is computed independently for each of the 10 groups.
       3. The variance is computed by subtracting the accuracy rate for each group
          from the accuracy rate established for the entire sample, squaring that
          difference, summing the squared differences, and dividing by 90.

The description provided by SSA is a valid method (dependent random groups) for
standard error estimation.1 The standard error is calculated as the square root of the
variance. To calculate precision at the 95 percent confidence level, SSA multiplies the
standard error by 2.26 (the 97.5th percentile of the t-distribution with 9 degrees of
freedom). To calculate the 95 percent confidence intervals, SSA multiplies the standard
error by 2.26 and adds this number to the projected accuracy rate to get the upper 95
percent confidence limit, and subtracts this number from the projected accuracy rate to
get the lower 95 percent confidence limit.

SSA reports the margin of error for the projected Title XVI SSI overpayment and
underpayment accuracy rates, exclusive of unpreventable errors, as 0.68 and 0.29
percent, respectively.

We were unable to recalculate SSA’s reported margin of error and confidence intervals
due to possible differences in random seed number selection and group allocation.
However, we reviewed the method for calculating the margin of error and found it
reasonable. In addition, we recalculated approximately SSA’s reported margin of error
and confidence intervals.




1
 See Sarndal, C.-E., B. Swensson, and J. Wretman (2003), Model Assisted Survey Sampling, Springer,
Section 11.3.2.


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)
                                                                    Appendix E

Agency Comments




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)
                                        SOCIAL SECURITY

MEMORANDUM


Date:      September 5, 2006                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit:
           Supplemental Security Income Payment Accuracy" (A-15-06-16107)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: SUPPLEMENTAL SECURITY
INCOME PAYMENT ACCURACY” (A-15-06-16107)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Reinforce the policies and procedures for management’s review of case files in accordance with
the Supplemental Security Income (SSI) Quality Review Manual System (QRMS).

Comment

We agree. The Agency has discussed and reinforced the policies and procedures for
management review of case files with the necessary staff.

Recommendation 2

Continue to restrict access to personnel who should not have the ability to directly modify, create
or delete the datasets used to calculate indicator results.

Comment

We agree. We will continue to work to ensure that unauthorized access does not occur in the
future.

Recommendation 3

Clearly define the phrases “free of preventable” and “unpreventable” and ensure consistent usage
of the wording throughout the narrative sections of the Performance and Accountability Report
(PAR).

Comment

We agree. The Agency has discussed with and received approval from the Office of
Management and Budget to delete “unpreventable” from the performance measure. As included
in the Fiscal Year (FY) 2006 – 2007 Annual Performance Plan and to be reported in the FY 2006
PAR, the new title of the performance measure will be, “Percent of SSI payments free of
overpayments and underpayments.” The new data definition will be: “The SSI payment
accuracy rate free of overpayments and underpayments is determined by an annual review of
statistically valid sample of the beneficiary rolls; i.e., the findings are representative of the
universe of the payments issued with 95 percent precision and confidence levels of +/-0.9
percent for overpayments and +/-0.3 percent for underpayments. Separate rates are determined
for overpayment error dollars and underpayment error dollars. The accuracy rates are computed
by dividing error dollars by the total dollars paid for the fiscal year. This percentage is


Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                               E-2
subtracted from 100 percent to determine the accuracy rate. The current measuring system
captures the accuracy rate of the non-medical aspects of eligibility for SSI payment outlays.”

Recommendation 4

Provide a clear linkage in the narrative sections of the PAR to other sections of the PAR that
contain relevant information that support the performance indicator.

Comment

We agree. In the FY 2006 PAR discussion of SSI payments free of overpayments and
underpayments, SSA linked these performance measures to SSA’s program initiatives addressing
the Presidential Management Agenda program initiative, “Eliminating Improper Payments.” We
refer the reader to the section of the PAR containing “SSA’s Improper Payments Act of 2002
Detailed Report.”




Performance Indicator Audit: SSI Payment Accuracy (A-15-06-16107)                                E-3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
